ee |
LAVERY LAW

 

February 25, 2020

Clerk of the Court

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, DC 20543-0001

RE: Colleen Reilly, et al. v. City of Harrisburg, et al,

Supreme Court Docket No. 19-983
Third Circuit Docket No. 18-2884
Our File No. 881-6831

Dear Sir or Madam:

Pursuant to Supreme Court Rule 30.4, please allow this letter to serve as a motion to
extend the time to file Respondents’ Brief in Opposition to Petitioners’ Petition for a Writ of
Certiorari filed and docketed with this Court on February 3, 2020, at Docket No. 19-983 by thirty
(30) days.

An extension is justified because Respondents’ Counsel, Frank J. Lavery, Jr., Esquire,
does not possess sufficient time to timely file a Brief in Opposition that is adequate in substance
and form to properly represent his clients’ position. Additionally, Respondents’ Counsel has
conferred with Petitioners’ Counsel who has no objection with this present motion,

For the reasons stated above, Respondents kindly request this Court to grant their request
for an extension of time to file their Brief in Opposition to Petitioners’ Petition for a Writ of

Certiorari by thirty days (30) days or until April 6, 2020.

Per Supreme Court Rule 29, I have filed this letter electronically with this Court and
mailed this letter first class mail to the Clerk and to the required parties,

Very truly yours,
3/ Frank J. Lavery, Jr,

Frank J. Lavery, Jr. Esquire

CC: Roger Gannam, Esquire
Horatio G. Mihet, Esquire

A PROFESSIONAL CORPORATION
